            STATE OF NEW JERSEY




  AUDIT OF ADP/IT CENTRAL SERVICES COSTS

                  CHARGED TO

      U.S. DOL GRANTS ADMINISTERED BY

     NEW JERSEY DEPARTMENT OF LABOR

   FROM JULY 1, 1996, THROUGH JUNE 30, 1999




                 FINAL REPORT



This audit was performed by Tichenor & Associates,
LLP, under contract to the U.S. Department of Labor,
Office of Inspector General, and, by acceptance, it
becomes a report of the Office of Inspector General.


                ____________________________________
                Assistant Inspector General for Audit
                U.S. Department of Labor




                             Final Audit Report No: 03-04-003-03-315

                             Date Issued: June 21, 2004
                                               TABLE OF CONTENTS


ACRONYMS ................................................................................................................................ i

INDEPENDENT ACCOUNTANT’S REPORT ON AUDIT................................................... 1

EXECUTIVE SUMMARY ......................................................................................................... 3

INTRODUCTION ....................................................................................................................... 7
   Background ............................................................................................................................. 7
   Objectives, Scope and Methodology ....................................................................................... 8

FINDINGS AND RECOMMENDATIONS

1. ADP/IT Central Services Overcharges Totaling $475,149 Were Not
   Credited to USDOL Grant Awards as Required by Federal Cost Principles ........................ 10

2. Deficiencies in the Calculations of Interest and Depreciation Costs for the HUB Building...14

3. USDOL Needs to Monitor the Utilization and Costs of ADP/IT
   Central Services Charged to Grants Awarded to NJDOL .......................................................16

EXHIBIT AUDITEE’S RESPONSE............................................................................................19
                                      ACRONYMS


ADP/IT       Automatic Data Processing/Information Technology

BLS          U.S. Department of Labor, Bureau of Labor Statistics

CSCAP        Central Services Cost Allocation Plan

DIT          State of New Jersey Department of Labor, Division of Information Technology

ES           U.S. Department of Labor, Employment Service

ETA          U.S. Department of Labor, Employment and Training Administration

HHS          U.S. Department of Health and Human Services

NJDOL        State of New Jersey, Department of Labor

NJOMB        New Jersey Office of Management and Budget

OIG          U.S. Department of Labor, Office of Inspector General

NJOIT        New Jersey Office of Information Technology

OMB          U.S. Office of Management and Budget

SFY          State Fiscal Year (July 1 through June 30)

SWCAP        State-Wide Cost Allocation Plan

UI           Unemployment Insurance

USDOL        U.S. Department of Labor

VETS         Veterans’ Employment and Training Service




USDOL/OIG Report No. 03-04-003-03-315          i
                          TICHENOR & ASSOCIATES, LLP
                     CERTIFIED PUBLIC ACCOUNTANTS and MANAGEMENT CONSULTANTS
                                  304 MIDDLETOWN PARK PLACE SUITE C
                                        LOUISVILLE KY 40243

                                      BUSINESS: (502) 245-0775
                                         FAX: (502) 245-0725
                                  E-MAIL: TICHENORKY@AOL.COM




Mr. Elliot P. Lewis
Assistant Inspector General for Audit
U.S. Department of Labor/OIG
Frances Perkins Building – Room S-5512
200 Constitution Ave., NW
Washington, DC 20210


                 INDEPENDENT ACCOUNTANT'S REPORT ON AUDIT

Tichenor & Associates, LLP, under contract to the U.S. Department of Labor (USDOL), Office
of Inspector General (OIG), performed an audit of the central services automatic data processing
and information technology (ADP/IT) costs charged to USDOL grants awarded to the State of
New Jersey’s Department of Labor (NJDOL) for State Fiscal Years (SFYs) 1997, 1998, and
1999.

The initial objective of this audit was to determine whether the ADP/IT central services costs
charged to USDOL Unemployment Insurance (UI) grants awarded to NJDOL for SFY 1999
were reasonable, allowable, and allocable under the Federal cost principles set forth in Office of
Management and Budget (OMB) Circular A-87 and the terms and conditions of the UI grant
awarded to NJDOL. However, at the request of the USDOL/OIG, we subsequently expanded the
scope of our audit to include all USDOL grant awards (except Job Corps) to NJDOL for SFYs
1997, 1998, and 1999. Final costs were not available for SFY 2000; therefore, we did not
include SFY 2000 within our audit scope.

Based on the results of our audit, we questioned a total of $475,149 in ADP/IT central services
costs charged to USDOL grant awards by NJDOL during SFYs 1997, 1998, and 1999 that did
not comply with Federal costs principles mandated by OMB Circular A-87. Specifically, we
found that NJDOL had been notified that ADP/IT central services cost had net overbillings
totaling $994,138 during SFYs 1997, 1998, and 1999, of which $475,149 were applicable to
USDOL grant awards.

Additionally, we found that the New Jersey Office of Information Technology’s (NJOIT) HUB
Building interest and depreciation costs billed to NJDOL were miscalculated for the 3 SFYs in
our audit period. In reviewing the Auditee’s response, we agree that the HUB Building reported
interest cost was understated by $285,692. We found that reported depreciation cost was

USDOL/OIG Report No. 03-04-003-03-315            1
overstated by $334,698. The understatement of interest costs and the overstatement of
depreciation costs resulted in a net over recovery of $49,006. Of this amount, NJOIT overbilled
NJDOL for building interest and depreciation costs for a net amount of $6,359, of which $4,712
was charged to USDOL grants.

Finally, a variance analysis we performed of NJOIT’s billing rates disclosed significant increases
(ranging from 24 to 194 percent) in NJOIT’s SFY 2000 rates over its SFY 1999 rates. These
increases were apparently caused by a decrease in the utilization of NJOIT’s ADP/IT central
services by a number of State agencies whose programs were being moved from NJOIT’s central
services “Enterprise Server” (mainframe) computing environment to a new “client server”
computing environment. NJOIT officials acknowledged that certain programs that rely on
mainframe processing, such as UI, will be required to fund even more of the mainframe
operating costs as other programs migrate to the new “client server” environment.

They also acknowledged that certain users, including NJDOL, expressed concern about the
escalating costs of NJOIT’s services. NJDOL officials stated that they are “locked” into the
NJOIT mainframe system and cannot move to an individual “client server” environment without
major technological adjustments and capital investments. However, at the time of our field
work, the State of New Jersey had not established a strategic technology plan for equitably
migrating existing State and Federal programs serviced by the “Enterprise Server” (mainframe)
to the new environment. As a result, Federal programs that rely on the mainframe processing,
such as the USDOL-funded UI program, will be funding an increasing share of the mainframe
operational costs as State programs migrate from the mainframe to the new platform. We
originally recommended in our draft report that the State conduct a feasibility study to determine
the most efficient, effective, and economical computing platform for meeting the ADP/IT needs
of USDOL grant programs to ensure that ADP/IT central services are reasonable. The State
subsequently completed that feasibility study, and our recommendations have been revised
accordingly.

This audit was performed in accordance with applicable standards established by the American
Institute of Certified Public Accountants and the Government Auditing Standards issued by the
Comptroller General of the United States. Our engagement did not include expressing a written
opinion on the reasonableness and allowability of NJDOL’s total claimed costs, the adequacy of
its overall system of internal controls, or its compliance with laws and regulations applicable to
Federal grant awards. Our detailed findings, conclusions, and recommendations are contained in
the accompanying report.

This report is intended solely for the use of the USDOL; however, the final report is a matter of
public record and its distribution is not limited.



TICHENOR & ASSOCIATES, LLP
Louisville, Kentucky
April 29, 2004


USDOL/OIG Report No. 03-04-003-03-315           2
                               EXECUTIVE SUMMARY


Tichenor & Associates, LLP, under contract to the U.S. Department of Labor (USDOL), Office
of Inspector General (OIG), performed an audit of the central services automatic data processing
and information technology (ADP/IT) costs charged to USDOL grants awarded to New Jersey’s
Department of Labor (NJDOL) for State Fiscal Years (SFYs) 1997, 1998, and 1999.

The initial audit objective was to determine whether the ADP/IT central services costs charged to
USDOL Unemployment Insurance (UI) grants awarded to NJDOL for SFY 1999 were
reasonable, allowable, and allocable under the Federal cost principles set forth in Office of
Management and Budget (OMB) Circular A-87 and the terms and conditions of the UI grant
awarded to NJDOL. However, at the request of the USDOL/OIG, we subsequently expanded the
scope to include all USDOL grant awards (except Job Corps) to NJDOL for SFYs 1997, 1998,
and 1999.

To achieve our objectives, we interviewed New Jersey Office of Information Technology
(NJOIT) and NJDOL officials, as well as reviewed New Jersey’s State-Wide Cost Allocation
Plan (SWCAP) for SFYs 1997 through 1999. We performed analytical procedures to determine
if ADP/IT costs were reasonable and allowable. We did not perform detailed testing of cost
transactions. To determine if the costs were allocated based on final cost objectives, we
reviewed the central services cost allocation plan (CSCAP) methodology for allocating the
ADP/IT costs to departmental and product line cost centers.

Additionally, we performed an analysis of NJOIT’s billing rates and usage statistics to determine
if Federal programs (such as the USDOL-funded UI program) that rely on the mainframe
processing are funding an unreasonably increasing share of the mainframe operational costs as
State programs migrate from the mainframe to the new “client server” platform. We compared
the billing rates between SFY 1999 and 2000 to determine if rates increased significantly. We
also compared NJOIT’s usage statistics for SFYs 1997 through 2000 to determine if the
utilization of NJOIT’s various ADP/IT central services by the various State agencies decreased
significantly.

AUDIT RESULTS

We question a total of $475,149 in ADP/IT central services costs charged to USDOL grant
awards by NJDOL because it did not comply with Federal cost principles. The total amount
questioned includes $475,149 in overcharges that were based on budget estimates but were not
adjusted to actual cost when this data became available. Specifically, we found that NJDOL had
been overcharged for ADP/IT central services provided by NJOIT. These overcharges
represented the difference of the total amount NJOIT billed NJDOL and the actual costs NJOIT
incurred for the same period. The overcharges occurred because, although NJOIT subsequently
calculated its actual costs for these services and provided this information to NJDOL, NJOIT
failed to refund these net overcharges to NJDOL, as required by OMB Circular A-87. In

USDOL/OIG Report No. 03-04-003-03-315           3
addition, NJOIT failed to prepare and include in its CSCAPs a schedule comparing its total
revenues (based on budget estimates) to its actual allowable cost and to address how it would
handle any resulting variances. As a result of NJOIT not providing refunds to the NJDOL,
USDOL grant awards were overcharged $475,149 for SFYs 1997 through 1999. (Finding No. 1)


Additionally, we found that NJOIT’s HUB Building interest and depreciation costs billed to
NJDOL were miscalculated for the 3 SFYs in our audit period. By reviewing the Auditee’s
response we agree that the HUB Building reported interest cost was understated by $285,692.
We found that reported depreciation cost was overstated by $334,698. The understatement of
interest cost and the overstatement of depreciation costs resulted in a net over-recovery of
$49,006. Of this amount, NJOIT overbilled NJDOL for building interest and depreciation costs
for a net amount of $6,359, of which $4,712 was charged to USDOL grants. (Finding No. 2)

Finally, NJOIT’s SFY 2000 billing rates increased significantly compared to its SFY 1999
billing rates. The increases were primarily caused by a decrease in the utilization of NJOIT’s
ADP/IT central services by a number of State agencies whose programs were being moved from
NJOIT’s central services “Enterprise Server” (mainframe) computing environment to a new
“client server” computing environment. However, at the time of our audit, the State of New
Jersey had not established a strategic technology plan for equitably migrating existing State and
Federal programs serviced by the “Enterprise Server” (mainframe) to the new environment. As a
result, Federal programs (such as the USDOL-funded UI program) that rely on the mainframe
processing will be funding an increasing share of the mainframe operational costs as State
programs migrate from the mainframe to the new platform. We believe that the State should
conduct a feasibility study to determine the most efficient, effective, and economical computing
platform for meeting the ADP/IT needs of USDOL grant programs to ensure that ADP/IT central
services are reasonable. (Finding No. 3)

AUDITEE’S RESPONSE AND AUDITOR’S CONCLUSION

In its response to our draft report, NJDOL agreed with our audit that USDOL grants were
overcharged $475,149 for SFYs 1997 though 1999. However, the response stated that NJDOL
had reviewed NJOIT’s ADP/IT central services charges for SFY’s 2000 through 2003 and
determined that USDOL grants were undercharged a total of $858,481 during this subsequent
period. According to NJDOL, this resulted in a net undercharge for Fiscal Years 1997 to 2003
of $383,332. However, we have not audited the reasonableness and allowability of the costs that
were purportedly undercharged to USDOL grants during SFYs 2000 through 2003. NJDOL
officials stated they would work with NJOIT to obtain even more accurate billings and reflect
only appropriate charges in the USDOL grants. Any future overcharges will be offset or credited
to the Federal programs. ETA’s Grant Officer will resolve the recommendations related to this
finding. (Finding No. 1)



NJDOL recalculated HUB Building interest costs, based on the Certificates of Participation on
the HUB Building Lease-Purchase Agreement, and determined that Federal grants for SFYs

USDOL/OIG Report No. 03-04-003-03-315          4
1997, 1998, and 1999, were understated by $285,692. We had determined that depreciation
expenses were overstated by $334,698. In its response, NJDOL stated that because of these
over- and understatements it calculated $6,359 of unallowable HUB Building interest and
depreciation costs were charged to NJDOL during the 3-year period covered by the audit. Of
this amount, $4,712 had been charged/allocated to USDOL programs. We agree with NJDOL’s
conclusion. ETA’s Grant Officer will resolve the recommendation related to this finding.
(Finding No. 2).

Concerning our draft report recommendation to conduct a feasibility study of the computing
platform used to meet the ADP/IT needs of USDOL grant programs, the NJDOL response stated
that a feasibility study was completed in 2003, and it is now proceeding with a comprehensive
unemployment insurance modernization project to move the UI benefits program to a “client
server” environment. ETA’s Grant Officer will resolve the recommendations related to this
finding. (Finding No. 3)

A copy of NJDOL’s complete response to the draft report is included in this report as an Exhibit.

RECOMMENDATIONS

We recommend USDOL, Employment and Training Administration (ETA) officials, and
USDOL Grant Officers take the following action:

1. We recommend the USDOL Assistant Secretary for Employment and Training ensure:

   a. The cognizant USDOL Grant Officers make the necessary adjustments to the applicable
      USDOL grant awards for net ADP/IT central services overcharges totaling $475,149 in
      SFYs 1997, 1998, and 1999.

   b. The cognizant USDOL Grant Officers review the reasonableness and allowability of the
      $858,481 in undercharges for ADP/IT cost alleged to have occurred in SFYs 2000, 2001,
      2002, and 2003.

2. We recommend the USDOL Assistant Secretary for Employment and Training direct
   NJDOL to implement internal control policies and procedures to ensure that costs claimed on
   USDOL grant awards are “net of all applicable credits,” as required by OMB Circular A-87.

3. We recommend the USDOL Assistant Secretary for Employment and Training direct
   NJDOL to institute controls to annually monitor the interest and depreciation costs included
   in the NJOIT central services costs and to ensure these costs are accurately charged to
   USDOL grant awards.

4. We recommend the USDOL Assistant Secretary for Employment and Training evaluate both
   the State’s feasibility study and strategic master deployment plan for a 5-year initiative to
   modernize UI benefit operations through an across-the-board updating and integration of
   information systems, to ensure that the ADP/IT costs charged to USDOL grants will be
   reasonable and necessary.

USDOL/OIG Report No. 03-04-003-03-315           5
5. We recommend the USDOL Assistant Secretary for Employment and Training closely
   monitor the utilization and costs of the ADP/IT services during this 5-year conversion
   process to ensure that USDOL grant awards are not absorbing any excess costs attributable to
   decisions made by the State.




USDOL/OIG Report No. 03-04-003-03-315         6
                                      INTRODUCTION


BACKGROUND

In recent years, the USDOL/ETA has expressed concern that state UI programs that obtained
ADP/IT services from outside the UI agency tended to have much higher ADP/IT costs than
state UI programs that had their own in-house ADP/IT capabilities. Accordingly, ETA requested
that USDOL/OIG consider this matter in planning its future audit work.

NJDOL receives substantial Federal funding annually from ETA, including funding for the State
UI program. NJDOL procures its computer mainframe ADP/IT services from NJOIT, which is a
central services bureau that provides ADP/IT central services (including computer mainframe
services) to 19 agencies and departments within the executive and legislative branches of the
New Jersey State government. Although NJOIT does not receive a State appropriation to cover
its operational costs, its budget is included as part of the State’s annual budget. NJOIT is
required to recover 100 percent of its operational costs from its customers for computer
usage/services rendered, but NJOIT is not allowed to over-recover its costs. During SFYs 1997
through 1999, NJOIT’s ADP/IT central services billings totaled almost $250 million, of which
about $34 million was billed to USDOL grant programs administered by NJDOL.

NJOIT uses a charge-back system under which it submits monthly invoices to NJDOL based on
NJOIT’s “State full cost rate” and/or its “Federal claiming rate.” The “State full cost rate”
invoices are generated to recover 100 percent of NJOIT’s budgeted operating costs by applying
actual resource utilization to budgeted rates, except for the month of June, the last month of the
SFY. The June bills are based on the remaining, unrecovered, annual budgeted costs without
regard for the actual utilization that month. Instead, each user organization is billed for its share
of the remaining, unrecovered, annual budgeted costs based on each user’s percentage of
utilization in the preceding 11 months.

The “Federal claiming rate” invoices are submitted to NJDOL monthly and are generally less
than the “State full cost rate” invoices. These Federal invoices are based on the “State full cost
rate,” which is modified to: (1) add certain allowable costs that are incurred by the State but not
included in NJOIT’s budgeted operating costs (e.g., fringe benefit costs applicable to State
salaries), and (2) delete any costs that are unallowable under Federal cost principles set forth in
OMB Circular A-87 (e.g., capital expenditures). After each year-end closing, NJOIT provides
NJDOL with a “Revised Federal Claiming Document” transmittal containing actual annual costs
based on rates developed using actual costs and actual utilization.




USDOL/OIG Report No. 03-04-003-03-315             7
OBJECTIVES, SCOPE AND METHODOLOGY

The initial objective of this audit was to determine whether the ADP/IT central services costs
charged to USDOL UI grants awarded to NJDOL for SFY 1999 were reasonable, allowable, and
allocable under the Federal cost principles set forth in OMB Circular A-87, and the terms and
conditions of the UI grant awarded to NJDOL. However, at the request of the USDOL/OIG, we
subsequently expanded the scope to include all USDOL grant awards (except Job Corps) to
NJDOL for SFYs 1997, 1998, and 1999. The scope of our audit did not include SFY 2000
because final actual cost data were not available to determine if the costs were allowable and
allocable for this period. However, we used SFY 2000 budgeted rates and actual utilization to
determine if Federal programs are funding a reasonable share of the mainframe operation.

To achieve our audit objectives, we interviewed NJOIT and NJDOL officials and reviewed New
Jersey’s SWCAP for SFYs 1997 through 1999. We interviewed NJOIT and NJDOL officials to
determine the methodology used for allocating and charging NJOIT monthly billings to various
benefiting cost objectives as required by OMB Circular A-87. We reviewed ADP/IT costs
charged to Federal programs to determine if they were reasonable, allowable, and allocable to
DOL programs based on final cost objectives.

To determine if the ADP/IT costs were reasonable, we compared all budgeted rates between
SFYs 1999 and 2000, and all usage categories for SFYs 1997 through 2000. To determine if the
ADP/IT costs were allowable, we obtained a list of all NJOIT departmental cost categories. We
then reviewed the list to determine if the costs contained within these categories were allowable
in accordance with costs listed in OMB Circular A-87, Attachment B. We did not perform
detailed testing of cost transactions. In addition, we interviewed NJOIT officials to determine if
they completed a required schedule comparing total revenues generated by each ADP/IT central
service to the allowable costs of the services for our audit period, and if they made adjustments
to DOL grants for any variances. Also, we reviewed the NJOIT Cost Development Rate
Determination and Billing Methodology to determine procedures for year-end adjustment to
Federal programs.

To determine if the costs were allocated based on final cost objectives, we reviewed the CSCAP
methodology for allocating the ADP/IT costs to departmental and product line cost centers. We
selected two Federal programs and one State program to determine if NJOIT consistently applied
the ADP/IT rates to both Federal and State programs. To test Federal and State program ADP/IT
cost, we judgmentally selected two USDOL UI programs based on their high volume of
computer transactions completed for April 1999, and we haphazardly selected one State
program, the Vocational Rehabilitation Service for April 1999.

To determine if allowable interest and depreciation was included in NJOIT’s CSCAP, we
interviewed NJOIT and New Jersey Office of Management and Budget (NJOMB) officials.
Although NJOIT and NJOMB officials were initially unable to provide adequate documentation
to support the building interest and depreciation costs charged to NJDOL, we obtained the
Budget Certificates of Participation New Issue for the HUB Building lease-purchase agreement
to determine the allowable interest expense. The IBM mainframe used by NJDOL Federal and
State programs is housed in the HUB building. The Certificates of Participation were issued as


USDOL/OIG Report No. 03-04-003-03-315           8
part of a lease-purchase agreement between the State of New Jersey and a private corporation to
provide funds necessary to finance the construction of the HUB building. NJOMB officials
provided a fixed asset schedule that we used to determine the total allowable HUB Building
depreciation for our 3-year audit period.

Finally, we performed an analysis of NJOIT’s billing rates and usage statistics to determine if
Federal programs (such as the USDOL-funded UI program) that rely on the mainframe
processing are funding an unreasonably increasing share of the mainframe operational costs as
State programs migrate from the mainframe to the new “client server” platform. We compared
the billing rates between SFYs 1999 and 2000 to determine if rates increased significantly. We
also compared NJOIT’s usage statistics for SFYs 1997 through 2000 to determine if the
utilization of NJOIT’s various ADP/IT central services by the various State agencies decreased
significantly.

Our audit was performed in accordance with applicable standards established by the American
Institute of Certified Public Accountants and Government Auditing Standards issued by the
Comptroller General of the United States. Our engagement did not include expressing a written
opinion on the reasonableness and allowability of NJDOL’s total claimed costs, the adequacy of
its system of internal controls, or its compliance with laws and regulations applicable to Federal
grant awards.

The audit fieldwork for this engagement was conducted at NJOIT offices and NJDOL offices in
Trenton, New Jersey.




USDOL/OIG Report No. 03-04-003-03-315            9
                      FINDINGS AND RECOMMENDATIONS


 Finding 1. ADP/IT Central Services Overcharges Totaling $475,149 Were Not
            Credited to USDOL Grant Awards as Required by Federal Cost Principles

Our audit found that NJDOL had been overcharged for ADP/IT central services provided by the
New Jersey Office of Technology (NJOIT). These overcharges represent the difference between
the total amount NJOIT billed NJDOL and NJOIT’s actual incurred costs for these services. The
overcharges occurred because, although NJOIT subsequently calculated its actual costs for these
services and provided this information to NJDOL, NJOIT failed to refund these net overcharges
to NJDOL as required by OMB Circular A-87. In addition, NJOIT failed to prepare and include
in its CSCAPs a schedule comparing its total revenues (based on budget estimates) to its actual
allowable costs and to address how it would handle any resulting variances. As a result of
NJOIT not providing refunds, the NJDOL was overcharged $994,138 for ADP/IT central
services during SFYs 1997 through 1999, of which $475,149 (or 48 percent) were charged to
USDOL grant awards.

Federal Cost Principles

Federal cost principles state that, to be allowable under Federal awards, costs must be “the net of
all applicable credits.” The phrase “applicable credits” refers to those receipts or reductions of
expenditure-type transactions that offset or reduce expense items allocable to Federal awards,
including rebates and adjustments for overpayments.

Regarding credits involving central services costs charged to Federal grant awards, OMB
Circular A-87, Attachment C, paragraph E.3.b(1), requires that the CSCAPs submitted by
internal service funds include, among other things, a schedule comparing total revenues
(including imputed revenues) generated by the service to the allowable costs of the service, with
an explanation of how variances would be handled. These adjustments must be made annually
and by one of the following methods:

(1)   a cash refund to the Federal Government for the Federal share of the adjustment;
(2)   credits to the amounts charged to the individual programs;
(3)   adjustments to future billing rates; or
(4)   adjustments to allocated central services costs (except that adjustments to allocated central
      services will not be permitted where the total Federal and non-Federal share of the
      adjustment exceeds $500,000).

NJOIT’s Central Services Billing Methodology

Our fieldwork disclosed that the CSCAPs NJOIT uses to establish billing rates for the various
central services it provides to State agencies are basically designed to recover NJOIT’s budgeted


USDOL/OIG Report No. 03-04-003-03-315            10
costs for the year. These CSCAPs are approved by the NJOMB. NJOIT uses a charge-back
system under which it submits monthly invoices to NJDOL based on NJOIT’s “State full cost
rate” and/or its “Federal claiming rate.” The ADP/IT central services costs billed to NJDOL
using the “Federal claiming rate” are then charged by NJDOL to its various administrative
functions and USDOL grant awards based on actual utilization.

Our analysis of NJOIT’s CSCAPs revealed that they did not include a schedule comparing total
revenues generated by the service to the allowable costs of the services, with an explanation of
how the variances would be handled during the 3-year period covered by our audit. We also
found that NJOIT failed to make the required adjustments for differences between its revenue
and allowable costs by refunding/crediting the overcharges to NJDOL, so it, in turn, could
refund/credit these amounts to the Federal Government as required by OMB Circular A-87.

When we asked NJDOL officials about the methodology they used to allocate NJOIT rebates for
these overcharges to its various cost objectives (including Federal grant awards), they stated that
NJDOL had not received any rebates or credits from NJOIT for these overcharges. Instead,
NJOIT simply provides them with a final “Federal claiming rate” document each year with
instructions that the enclosed “Revised Federal Claiming Document” was provided to support
any retroactive claiming adjustment that the client would submit to the Federal Government.

NJOIT officials stated that they were only responsible for calculating and providing actual costs
at year-end to its user agencies, including NJDOL, and that NJOIT had done this through the
issuance of a final “Revised Federal Claiming Document” based on its actual costs and actual
utilization data. They further stated that it was each user agency’s responsibility to perform the
“billed to actual comparison” and to make any retroactive adjustment with the applicable Federal
agencies. Our review of the NJOIT Cost Development Rate Determination and Billing
Methodology confirmed that it states, “It is each agency’s responsibility based on year-end rates,
to adjust charges to Federal programs accordingly.” However, an NJOIT official concurred with
OIG’s understanding that, to comply with OMB Circular A-87, NJOIT should compare its total
revenues (based on budget estimates) to its actual allowable costs and address how it would
handle any resulting variances.

As a result, NJOIT should revise NJOIT Cost Development Rate Determination and Billing
Methodology policies and procedures to conform to Federal OMB Circular A-87 cost principles.
The procedures should include NJOIT preparing an annual schedule comparing total revenues
generated by the service to the allowable costs of the service, with an explanation of how
variances would be handled.

Computation of Overcharges by Auditors

Our comparison of the amounts in the “Revised Federal Claiming Document” to the amounts in
the original “Federal claiming rate” invoices for the audit period SFYs 1997 through 1999
showed that NJDOL had been overcharged a total of $994,138 for ADP/IT central services, of
which $562,886 had been charged to USDOL UI grant awards. We also found that other
USDOL grant awards had net undercharges totaling ($87,737.) Thus, the total net ADP/IT
overcharges to USDOL grant awards totaled $475,149.


USDOL/OIG Report No. 03-04-003-03-315           11
NJDOL also performed a reconciliation of the budgeted costs billed to NJDOL to the actual
costs included in the final Federal claiming documents, and it was aware of the overcharges.
However, as previously discussed, NJDOL did not refund/credit the overcharges to the USDOL
grant awards because it never received any refunds/credits from NJOIT.

Auditee’s Response and Auditor’s Conclusion

NJDOL agreed that for the period involving State Fiscal Years (SFY) 1997 through SFY 1999
there was a net overcharge to USDOL grants of $475,149. However, the response stated that
NJDOL reviewed grant charges for SFYs 2000 through 2003 and determined that USDOL grants
were undercharged a total of $858,481 during this subsequent period. According to NJDOL this
resulted in a net undercharge for SFYs 1997 to 2003 of $383,332. The response also stated
NJDOL would work with NJOIT to obtain even more accurate billings and reflect only
appropriate charges in the USDOL grants, and that any future overcharges would be offset or
credited to the Federal programs.

In short, NJDOL has agreed with the Auditor’s finding for SFYs 1997 through 1999. However,
we have not audited the accuracy and validity of NJDOL’s review of NJOIT’s ADP/IT central
services charges for SFY’s 2000 through 2003, nor the reasonableness and allowability of the
costs that were purportedly undercharged to USDOL grants during this period. ETA’s Grant
Officer will resolve the recommendations related to this finding.

Recommendations

1.   We recommend the USDOL Assistant Secretary for Employment and Training ensure that:

     a. The cognizant USDOL Grant Officers direct NJDOL to make the necessary adjustments
        to the applicable USDOL grant awards for net ADP/IT central services overcharges
        totaling $475,149 in SFYs 1997, 1998, and 1999, as follows:

        Bureau of Labor Statistics (BLS)                                          $    (759)
        Employment Service                                                          (91,017)
        Veterans’ Employment and Training Service (VETS)                               4,050
        Unemployment Insurance                                                       562,886
        OSHA                                                                            (11)
          Total                                                                   $ 475,149

        [Note: For audit resolution purposes, we will not track adjustments for grant awards with
        net overcharges that are equal to or less than $5,000.]

     b. The cognizant USDOL Grant Officers review the reasonableness and allowability of the
        $858,481 in undercharges for ADP/IT costs alleged to have occurred in SFYs 2000,
        2001, 2002, and 2003.




USDOL/OIG Report No. 03-04-003-03-315           12
2.    We recommend that the USDOL Assistant Secretary for Employment and Training direct
      NJDOL to implement internal control policies and procedures to ensure that all future
      costs claimed on USDOL grant awards are “net of all applicable credits,” as required by
      the Federal cost principles mandated by OMB Circular A-87.




USDOL/OIG Report No. 03-04-003-03-315       13
 Finding 2.     Deficiencies in the Calculations of Interest and Depreciation Costs for the
                HUB Building

Our audit disclosed that NJOIT’s HUB Building interest and depreciation costs billed to NJDOL
were miscalculated. The miscalculation occurred because NJOIT did not maintain
documentation to support the calculations of the amount of interest and depreciation costs
reported in the CSCAPs. As specified in OMB Circular A-87, to be allowable, costs must be
adequately documented and may not exceed actual incurred costs.

In response to the draft report, NJDOL provided schedules to demonstrate how the HUB
Building interest cost should be calculated based on the Certificates of Participation on the HUB
Building Lease-Purchase Agreement. Their calculations show, for the period audited, that
NJDOL undercharged interest on Federal grants. We found that depreciation expense for the
HUB building was overstated. We agree with the NJDOL’s conclusions.

NJOIT’s enterprise server (mainframe) and related peripherals are housed in a location called the
HUB Building. NJOIT included HUB Building acquisition interest expense and building
depreciation as part of the costs to be recovered in its CSCAPs. In response to the draft report,
NJDOL recalculated the amount of HUB Building interest cost, using documentation such as
interest costs identified in the State of New Jersey Budget regarding the Certificates of
Participation New Issue for the HUB Building Lease-Purchase Agreement and the coupon
interest amount for each payment period. NJDOL recalculated the allowable interest expense
actually incurred for SFYs 1997, 1998, and 1999, and determined that the interest expense in the
CSCAPS was understated by $285,692. The Auditor agrees with this calculation.

To determine the amount of HUB Building depreciation expense, we used a fixed asset schedule
provided by NJOMB. The fixed asset schedule showed $10,185,291 in building costs to be
depreciated. However, once the amount was divided by the 40-year useful life that NJOIT said it
uses to depreciate its buildings (based on the straight-line depreciation method), we arrived at a
much lower annual depreciation rate of ($254,632), which is less than the ($366,198) used in
NJOIT’s CSCAPs for the 3-year audit period.

                 Description                   SFY 1997        SFY 1998     SFY 1999      Totals
Under-Recovery of Interest Costs                ($139,066)      ($95,713)    ($50,913)   ($285,692)
Over-Recovery of Depreciation Expense             $111,566       $111,566     $111,566     $334,698
Total Net (Under)/Over Recovery of HUB
                                                 ($27,500)        $15,853      $60,653     $49,006
Building Expenses
NJDOL’s Share of Total NJOIT billings               13.99%        13.80%       13.22%
Total Over Billings of HUB Building
                                                    ($3,847)       $2,188       $8,018      $6,359
Expenses to NJDOL

As shown above, the net amount of HUB Building expenses overbilled to NJDOL during the 3-
year period covered by our audit was $6,359. NJDOL calculated that $4,712 of this amount had
been charged/allocated to USDOL programs (e.g., BLS, ES, ETA, UI, and VETS). We
determined the amount of unallowable interest and depreciation costs charged to each USDOL



USDOL/OIG Report No. 03-04-003-03-315          14
program by calculating the percentage of NJOIT costs charged to each program to the total
NJOIT billings to NJDOL. We consider the amount overcharged to the USDOL programs
immaterial, and we do not recommend that the questioned costs be refunded to USDOL.
However, NJOIT needs to ensure that HUB interest and depreciation costs are documented,
accurately calculated, and correctly reported in its CSCAP.

Auditee’s Response and Auditor’s Conclusion

NJDOL found that NJOIT’s approved CSCAPs included building interest and depreciation costs
were inaccurate for the three SFYs in our audit period. However, using documentation obtained
during the audit by DOL/OIG, it was able to determine that the HUB Building Expenses reported
interest cost was understated by $285,692. When adding this amount to the overstated reported
depreciation cost of $334,698, NJDOL calculated a net over-recovery of $49,006. As a result,
NJOIT overbilled NJDOL for building interest and depreciation costs for a net amount of
$6,359, of which $4,712 was charged to USDOL grants. We reviewed documentation that was
used to calculate the interest costs and concur with NJDOL. As a result, we revised the finding
to reflect the correct amount of interest costs. We compared the undercharged interest costs to
the overcharged depreciation costs and agree there was a net overcharge to USDOL grants of
$4,712. The ETA Grant Officer will resolve this recommendation related to this finding.

Recommendation

3. We recommend that the USDOL Assistant Secretary for Employment and Training direct
   NJDOL to institute controls to annually monitor the interest and depreciation costs included
   in the NJOIT central services costs and to ensure these costs are accurately charged to
   USDOL grant awards.




USDOL/OIG Report No. 03-04-003-03-315          15
 Finding 3. USDOL Needs to Monitor the Utilization and Costs of ADP/IT
            Central Services Charged to Grants Awarded to NJDOL

NJOIT’s SFY 2000 billing rates increased significantly compared to its SFY 1999 billing rates.
The increases were primarily caused by a decrease in the use of NJOIT’s ADP/IT central
services by a number of State agencies whose programs were being moved from NJOIT’s central
services “Enterprise Server” (mainframe) computing environment to a new “client server”
computing environment. At the time of our audit, the State of New Jersey had not established a
strategic technology plan for equitably migrating existing State and Federal programs serviced
by the “Enterprise Server” (mainframe) to the new environment. As a result, Federal programs
(such as the USDOL-funded UI program) that rely on the mainframe processing will be funding
an increasing share of the mainframe operational costs as State programs migrate from the
mainframe to the new platform. We believe that the State should conduct a feasibility study to
determine the most efficient, effective, and economical computing platform for meeting the
ADP/IT needs of USDOL grant programs to ensure that ADP/IT central services are reasonable.

OMB Circular A-87, Attachment A, General Principles for Determining Allowable Costs,
provides basic guidelines for determining the reasonableness of costs. Among other things, it
states that a cost is reasonable if, in its nature and amount, it does not exceed that which would
be incurred by a prudent person under the circumstances prevailing at the time the decision was
made to incur the cost.

NJOIT recovers its costs of providing ADP/IT services to the various State agencies using billing
rates based on budgeted costs applied to actual usage. As part of our audit, we performed a
variance analysis that disclosed significant increases (ranging from 24 percent to 194 percent) in
NJOIT’s SFY 2000 service category billing rates compared to its SFY 1999 rates. We also
performed an analysis of NJOIT’s usage statistics by service category for SFYs 1997 through
2000 that disclosed a significant decrease in the utilization of NJOIT’s various ADP/IT central
services by the various State agencies. In short, the costs are greater for the remaining users.

In response to our queries regarding these observations, NJOIT officials stated that the State was
moving to a “client server” environment, and that new programs were using this platform rather
than the central services “Enterprise Server” (mainframe) computing platform provided by
NJOIT. Some State agencies were also moving their older programs to the new “client server”
computing environment. NJOIT officials acknowledged that programs, such as UI, that rely on
mainframe processing will be required to fund more of the mainframe operating costs as other
programs migrate to the new “client server” environment. They also acknowledged that users,
including NJDOL, had expressed concern about the escalating costs of NJOIT’s services.

Accordingly, we met with NJDOL Division of Information Technology (DIT) officials to obtain
more information about the respective roles and relationships between NJOIT and NJDOL/DIT.
We were informed that NJDOL/DIT was responsible for coordinating and representing NJDOL’s
ADP/IT interests, including reviewing the NJOIT billings, and addressing any ADP/IT concerns
NJDOL had with NJOIT. In addition, NJDOL/DIT’s programmers, program analysts, and


USDOL/OIG Report No. 03-04-003-03-315           16
managers provide support for NJDOL’s in-house systems.

NJDOL/DIT officials told us that, prior to 1986, NJDOL and other State agencies had their own
in-house computers and programmers. However, in 1986 the New Jersey Governor’s office
made a decision to develop a centralized ADP/IT service system. The stated purpose of the
centralized system was to provide better services, faster access, and no worries about
programming needs, all at lower costs. All State agencies were required by State regulations to
utilize the new centralized ADP/IT services.

However, in recent years (1999–2000) the State has begun encouraging all State agencies
(including NJDOL) to move from the NJOIT mainframe to the new “client server farm”
managed by NJOIT in which each user will have its own in-house “client server/LAN” system.
As the various State agencies make the move to the “client server” environment, agencies (such
as NJDOL) that continue to use the ADP/IT central services provided by NJOIT are having to
absorb an ever increasing share of the large overhead costs of the old mainframe system operated
by NJOIT.

NJDOL/DIT officials stated that because many of the larger programs, such as UI, have had to
rely on NJOIT’s centralized ADP/IT system for the past 14 years, they are dependent on the
NJOIT mainframe system. They said that certain systems (e.g., the UI Benefits Payment
System) cannot move from the mainframe computer environment to an individual “client server”
environment without major technological adjustments and capital investments. Keeping the UI
program on the NJOIT mainframe has the disadvantage of being “stuck” with existing
technology and a sharply escalating share of ADP/IT pooled overhead costs. NJDOL/DIT
officials said that UI officials would like to enhance their telephone claims system by being able
to offer UI claimants 24/7 internet access services. They also said this system would save money
and create better services to UI customers, but would require NJOIT to make major and costly
enhancements to its mainframe system.

In addition, NJDOL/DIT officials said that since the various State agencies are no longer
required by regulations to utilize NJOIT ADP/IT central services, NJDOL would like to move all
its systems from the NJOIT mainframe to an in-house system. However, at the time of our audit,
NJOIT had not established a strategic technology plan for equitably migrating existing State
agencies with Federal programs serviced by the mainframe “Enterprise Server” (e.g., NJDOL) to
the new “client server” computing platform. Further, NJDOL/UI officials said they did not have
a capital budget to purchase the equipment needed to develop the UI portion of the “client server
farm.”




USDOL/OIG Report No. 03-04-003-03-315          17
In summary, USDOL grant programs administered by NJDOL are absorbing an ever-increasing
share of NJOIT’s overhead costs as other State agency users are moved from NJOIT’s
mainframe computing platform to the new “client server” environment. NJOIT officials have
acknowledged that users of NJOIT’s ADP/IT central services expressed concern about the
escalating cost of NJOIT’s services. We believe that the significant increases in the costs of
ADP/IT central services discussed above are unreasonable and should not be borne by Federal
grant programs. Instead, these increased costs should be borne by the State of New Jersey
because the increases appear to have been caused primarily by State decisions. In a 1986
decision by the New Jersey Governor’s office, NJDOL was required to give up its in-house
ADP/IT system and utilize the ADP/IT central services provided by NJOIT. In addition, a more
recent decision by the State to begin moving new and selected existing programs from NJOIT’s
central services to a new “client server” environment was not supported by a fair and equitable
plan to ensure that USDOL grant programs were not adversely affected by the State’s decisions.

Auditee’s Response and Auditor’s Conclusion

In the draft report, we recommended that NJDOL conduct a feasibility study to determine the
most efficient, effective, and economical computing platform for meeting the ADP/IT needs of
USDOL grant programs, including the development of a proposed plan of action for meeting this
need. In its response, NJDOL stated that a feasibility study was completed in 2003, and that it is
now proceeding with a comprehensive unemployment insurance modernization project to move
the UI benefits program to a “client server” environment. The response further stated that
NJDOL had also developed a strategic master deployment plan for a 5-year initiative to
modernize UI benefit operations through an across-the-board updating and integration of
information systems. The response further stated that the technical design would be based on
“client server” architecture that will provide the best value for NJDOL in terms of leveraging
resources and costs and will result in the full migration of all UI benefits systems applications
from the mainframe to the “client server” environment. Additionally, the new system would
provide NJDOL with the ability to more closely monitor the utilization and costs of services that
are charged to USDOL grant funds, thereby helping to ensure that the Federal Government is
paying only for the ADP/IT services that are rendered to NJDOL. ETA’s Grant Officer will
resolve the recommendations related to this finding.

Recommendations

4.   We recommend the USDOL Assistant Secretary for Employment and Training evaluate
     both the State’s feasibility study and strategic master deployment plan for a 5-year initiative
     to modernize UI benefit operations through an across-the-board updating and integration of
     information systems, to ensure that the ADP/IT costs charged to USDOL grants will be
     reasonable and necessary.

5.   We also recommend the USDOL Assistant Secretary for Employment and Training closely
     monitor the utilization and costs of the ADP/IT services during this 5-year conversion
     process to ensure that USDOL grant awards are not absorbing any excess costs attributable
     to decisions made by the State.



USDOL/OIG Report No. 03-04-003-03-315            18
                                        EXHIBIT

                                AUDITEE’S RESPONSE




USDOL/OIG Report No. 03-04-003-03-315     19
USDOL/OIG Report No. 03-04-003-03-315   20
USDOL/OIG Report No. 03-04-003-03-315   21
USDOL/OIG Report No. 03-04-003-03-315   22
USDOL/OIG Report No. 03-04-003-03-315   23
